<html>
<title> - ELECTION ASSISTANCE COMMISSION OPERATIONS AND 2012 BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





   ELECTION ASSISTANCE COMMISSION OPERATIONS AND 2012 BUDGET PROPOSAL

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                                 of the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                 Held in Washington, DC, March 17, 2011

                               __________

      Printed for the use of the Committee on House Administration



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html




                  U.S. GOVERNMENT PRINTING OFFICE
67-268                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                   COMMITTEE ON HOUSE ADMINISTRATION

                DANIEL E. LUNGREN, California, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania,
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 CHARLES A. GONZALEZ, Texas
RICHARD B. NUGENT, Florida

                           Professional Staff

             Philip Kiko, Staff Director & General Counsel
                  Jamie Fleet, Minority Staff Director
                                 ------                                

                       Subcommittee on Elections

                  GREGG HARPER, Mississippi, Chairman
AARON SCHOCK, Illinois               CHARLES A. GONZALEZ, Texas
RICHARD B. NUGENT, Florida           ROBERT A. BRADY, Pennsylvania
TODD ROKITA, Indiana

 
   ELECTION ASSISTANCE COMMISSION OPERATIONS AND 2012 BUDGET PROPOSAL

                              ----------                              


                        THURSDAY, MARCH 17, 2011

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:00 a.m., in 
room 1310, Longworth House Office Building, Hon. Gregg Harper 
(chairman of the subcommittee) presiding.
    Present: Representatives Harper, Nugent, Rokita, Brady, and 
Gonzalez.
    Staff Present: Phil Kiko, Staff Director/General Counsel; 
Peter Schalestock, Deputy General Counsel; Kimani Little, 
Parliamentarian; Joe Wallace, Legislative Clerk; Yael Barash, 
Assistant Legislative Clerk; Salley Wood, Communications 
Director; Bob Sensenbrenner, Elections Counsel; Karin Moore, 
Elections Counsel; Jamie Fleet, Minority Staff Director; Kyle 
Andersen, Minority Press Secretary; Khalil Abboud, Minority 
Elections Staff; and Thomas Hicks, Minority Elections Counsel.
    Mr. Harper. I now call to order the Committee on House 
Administration Subcommittee on Elections for today's oversight 
hearing on the Election Assistance Commission. The hearing 
record will remain open for 5 legislative days so that members 
may submit any materials that they wish to be included therein.
    A quorum is present, so we may proceed. And as we start, 
thank you for being patient as we had to work through that 
first series of votes. The Subcommittee on Elections has the 
important task of overseeing Federal elections and considering 
legislative means to improve and protect the integrity of our 
electoral system.
    The Help America Vote Act, passed in 2002, improved our 
Nation's Federal elections systems and processes by requiring 
updated voting equipment and standardizing election-related 
procedures across the country. The legislation also established 
the Election Assistance Commission to assist States in their 
obligation to meet the requirements of HAVA.
    Now in the ninth year of existence, nearly a decade after 
the passage of HAVA, the EAC is here to discuss its ongoing 
efforts to fulfill its legislative mission as well as its 
budget request for fiscal year 2012. I also want to discuss the 
EAC's mission, how it is accomplishing its directives and what 
more needs to be done to achieve these goals. Given that our 
recent CRs and the President's budget proposal for fiscal years 
2010, 2011, and 2012 all zeroed out the requirements payments 
function of the EAC, how has its core mission changed?
    As many of you know, I have serious doubts about the 
Commission's purpose given that most States have met the major 
requirements of HAVA and little funding remains to be 
disbursed, which is why I recently introduced H.R. 672 to 
eliminate the Commission. At a time of $1.5 trillion deficits, 
a $14.3 trillion debt and a Federal discretionary spending 
budget which has increased enormously in the last 2 years, 
spending money on the EAC is very difficult to justify.
    In front of us today, though, are two charts that I think 
will point out some of the more glaring problems in the 
Commission. The first shows the very steep increase in staff 
since the legislative cap was removed in 2007. This increase 
came without an increase in the authority or responsibilities 
set out in HAVA.
    The other chart shows the EAC's fiscal year 2012 budget 
request by category with 51 percent devoted to management cost. 
I don't know how to justify an agency with $5.4 million in 
overhead to support programs totaling $3.5 million. These are 
both serious concerns of mine and something I hope our 
presenters will address in their testimony and in response to 
the questions today.
    Nevertheless, until and unless H.R. 672 is enacted, the EAC 
is still obligated to assist States with compliance to HAVA, 
and this subcommittee is obligated to exercise its oversight 
responsibilities. Therefore, I welcome today's oversight 
hearing and look forward to discussing the EAC's mission, 
mandate and budget request. My colleagues and I are committed 
to rigorous oversight, and I want to thank each of them for 
being here.
    I would like now to recognize my colleague, Mr. Brady, the 
ranking member of the committee and this subcommittee, for the 
purpose of providing an opening statement.
    Mr. Brady.
    Mr. Brady. Thank you. And I want to thank the chairman for 
calling this very important hearing on the Election Assistance 
Commission and the 2012 budget request. It is our hope that we 
can learn from our witnesses steps the agency will take to 
maximize its use of valuable taxpayer resources and to ensure 
that the EAC is able to fully carry out its important mission.
    The EAC was created in 2002 when Congress enacted the Help 
America Vote Act. The bipartisan legislation developed 
mandatory minimum standards for States to apply an election 
administration. Under the provision of that law, the EAC is 
charged with assisting States with the implementation and 
enforcement of these standards. While I acknowledge that the 
Commission has seen its share of administrative challenges, 
these issues I believe are fixable.
    The EAC is the only Federal agency created exclusively for 
the purpose of aiding State and local elected officials with 
their responsibilities to administrate Federal elections. At 
first, that help came in the form of money, later in standards, 
as well as machine certifications and now information sharing 
and best practices, as well as monitoring the money and the 
standards.
    It is my understanding that the chairman is planning to 
hold a number of hearings in the future devoted to reform. Last 
year we were able to work in a bipartisan manner on military 
voting and ballot tracking. I hope that that will continue, and 
I look forward to hearing from all of our witnesses.
    Mr. Harper. Does any other member wish to be recognized for 
the purpose of making an opening statement?
    Mr. Gonzalez. Mr. Chairman.
    Mr. Harper. Yes, sir. Please proceed.
    Mr. Gonzalez. Thank you very much. And I appreciate you 
holding the hearing, Mr. Chairman.
    I guess my only observation would be being here at the 
inception and the adoption of the legislation that created the 
Commission, of course we had great hopes and we understood the 
great need for the Commission. I will be honest with you, there 
were aspects of it I did not appreciate. We had a debate. We 
lost. But, overall, what it was attempting to accomplish--and I 
believe we have been on the road and have made significant 
progress in lending assistance to our local election officials.
    The backdrop is a bill that obviously is out there that 
would dismantle and incorporate the Commission in other 
agencies or entities. I would oppose that bill. I would hope 
that we will be able--and I want to listen. I want to keep an 
open mind to everything that the chairman and other members may 
have to point out regarding areas of improvement, because I 
think we all can agree we can always do a better job, whether 
it is an individual Member of Congress or whether any 
commission or any other committee. But that is what I would 
hope, that we are on the road to improve that which we do but 
not necessarily dismantle and replace by simply getting it 
subsumed by other agencies that are out there that have their 
own issues, by the way. And if they were here before us, we 
probably would have charts indicating certain shortcomings.
    So let us start the debate. Keep an open mind. And I look 
forward to the testimony. And I apologize. A member of my staff 
will be here. I apologize to my colleagues and to the chairman, 
but I have to chair a meeting at 11:30. So I will be excusing 
myself a little earlier than I would like. But again, thank you 
for the courtesy and I yield back.
    Mr. Harper. Thank you. I would like now to introduce our 
witnesses. The Honorable Donetta Davidson is a Commissioner on 
the EAC. Ms. Davidson was nominated by President Bush and 
confirmed by unanimous consent in the Senate in 2005. She was 
appointed to a second term in October of 2008. She has served 
as vice chair and chair of the EAC, as well as on its Technical 
Guidelines Development Committee. Ms. Davidson has extensive 
experience in election administration. She has been a county 
clerk recorder, the Director of Elections for the Colorado 
Department of State and Colorado Secretary of State. Ms. 
Davidson has served on the Federal Election Commission's 
advisory panel and the board of directors of the Help America 
Vote Foundation. She has been President of the National 
Association of Secretaries of State and President of the 
National Association of State Election Directors.
    The Honorable Gineen Bresso is a Commissioner on the EAC, a 
former chair of EAC. She was nominated by President Bush and 
confirmed by the Senate in 2008. Prior to service on the EAC, 
Ms. Bresso was Minority Elections Counsel for this committee, 
the Committee on House Administration, Policy Advisor to former 
Governor Ehrlich and Attorney Advisor for the U.S. Patent and 
Trademark Office. She holds a juris doctorate from Western New 
England College School of Law and clerked for the Maryland 
Court of Special Appeals.
    Mr. Thomas Wilkey is the Executive Director of the EAC, a 
position he has held since 2005. He joined the Erie County 
Board of Elections as an election clerk, served as Senior 
Election Deputy, served on New York State Board of Elections, 
was involved in New York's Voting System Certification Program, 
served on the New York State Board of Elections from 1992 to 
2003 and was the Executive Director in 2003. Mr. Wilkey has 
been Secretary, Treasurer, Vice President and President of the 
National Association of State Election Directors, served on the 
FEC's Voting System Standards Committee, has served on numerous 
commissions related to studying election reform and helped in 
developing the Help America Vote Act of 2002.
    Ms. Alice Miller is the Chief Operating Officer of the EAC. 
She oversees the day-to-day operations involving voting systems 
testing and certification, administration and human resources, 
information technology and research, and programs and policy. 
Prior to joining the EAC, Ms. Miller was the Executive Director 
of the District of Columbia Board of Elections and Ethics. 
During her 12-year tenure, she was responsible for overseeing 
and managing all aspects of their elections. She also served as 
the board's General Counsel from 1996 to 1997. Ms. Miller holds 
a juris doctorate degree from Northeastern University School of 
Law.
    Ms. Annette Lafferty is the EAC's first Chief Financial 
Officer. Since 2009, she has overseen the day-to-day financial 
operations, including grants management, accounting, budget and 
procurement. Ms. Lafferty has been in Federal financial 
management for over 15 years at the U.S. Department of 
Education, the Federal Aviation Administration, and the 
Corporation for National and Community Service. She has also 
worked as a contractor at the U.S. Department of Housing and 
Urban Development and the General Services Administration. Ms. 
Lafferty holds a master of business administration in finance 
and investments from the George Washington University and a 
master of arts in psychology from Marymount University.
    It is our understanding that Mr. Wilkey will provide 
testimony on behalf of himself, Ms. Miller, and Ms. Lafferty. 
That being said, we appreciate all of you being here today. The 
committee has received written testimony from each of you. At 
the appropriate time, I will recognize each of you for 5 
minutes to present a summary of that submission.
    To help you keep that time, we have a timing device near 
the witness table. The device will emit a green light for 4 
minutes and will turn yellow when 1 minute remains. When the 
light turns red, it means your time has expired.
    Commissioner Davidson, we will begin with you. You may 
proceed.

  STATEMENTS OF THE HON. DONETTA DAVIDSON, COMMISSIONER, U.S. 
 ELECTION ASSISTANCE COMMISSION; THE HONORABLE GINEEN BRESSO, 
   COMMISSIONER, U.S. ELECTION ASSISTANCE COMMISSION; THOMAS 
     WILKEY, EXECUTIVE DIRECTOR, U.S. ELECTION ASSISTANCE 
    COMMISSION; ALICE MILLER, CHIEF OPERATING OFFICER, U.S. 
  ELECTION ASSISTANCE COMMISSION; AND ANNETTE LAFFERTY, CHIEF 
     FINANCIAL OFFICER, U.S. ELECTION ASSISTANCE COMMISSION

             STATEMENT OF THE HON. DONETTA DAVIDSON

    Ms. Davidson. Good morning, Mr. Chairman and Ranking Member 
Brady. I thank you for inviting me to be with you today. My 
name is Donetta Davidson. And as the chair said, I have a 
lifelong election experience. I won't repeat any of it. But I 
did serve at the same time as Congressman Rokita for part of my 
term, which was an honor.
    Today I will speak to you primarily about EAC's work to 
test and certify voting systems, an area I have focused on 
since my arrival to the Commission. In the Help America Vote 
Act, it instructs EAC to establish a voting, testing and 
certification program. This program is voluntary. However, it 
provides valuable information to election officials throughout 
the Nation regardless of whether they participate. And the 
value comes from a unique role EAC assumes testing voting 
systems to high standards and also making that information 
available to election officials and the public and notifying 
the public up front when we discover an issue.
    EAC's commitment to high standards and transparency on how 
voting systems are certified provides the following benefits. 
EAC saves States money and time. It offers a comprehensive 
testing program that thoroughly tests voting systems. The 
baseline information allows States to limit their testing to 
individual State requirements. Even partial use of the EAC 
program has potential to eliminate duplicate testing and save 
States millions of dollars as well as 6 to 12 months of testing 
time.
    EAC holds voting system manufacturers accountable in two 
main ways, with a tough, thorough testing process; test plans 
must be approved before testing processes can even begin. Once 
voting systems have been certified, manufacturers must adhere 
to the EAC quality monitoring program, which requires 
manufacturers to report issues happening in the field. EAC also 
investigates issues experienced with our certified systems and 
notifies both public and election officials.
    We operate in the sunshine. Accountability, transparency, 
and public confidence are crucial to the success of this 
program. That is why the methods used in accrediting 
laboratories and certifying voting systems are available to the 
public. Issues discussed and discovered during testing or in 
the field are proactively communicated to election officials 
and the general public.
    EAC delivers information about certification and testing to 
election officials and the public in several ways. Information 
is automatically delivered to you if you sign up for the 
program alert, including those about voting systems. A 
quarterly report for voting system testing and certification, a 
newsletter is also provided with technical updates, and 
information is included in our weekly e-mail alerts to 
stakeholders, which includes Congress.
    As a former local and State Election Director, I expressly 
appreciate the EAC's understanding that tough standards and the 
public notifications are equally important. And not only share 
the information, but present it in plain language so that it is 
accessible and understandable to everyone.
    EAC.gov provides a wealth of information about voting 
systems, everything from the original test plan to any anomaly 
report we may have issued about the system. And just as 
important, EAC brings a perspective of election officials to 
the process. We know that the work we do to develop voting 
system guidelines and certify voting systems must be applicable 
in the real world of elections. The best solution and 
technology won't help if they are too expensive or time 
consuming for locals to implement.
    I have watched the evolution of this program since my 
arrival at the EAC, and at that time no voting systems had a 
certification by the Federal Government. Today, we have four 
voting systems and two modifications that have been certified. 
And we are working with jurisdictions throughout the Nation, 
sharing information on how to make voting systems operate more 
effectively. This combination, with election officials and the 
experts nationwide in our network, of support informing and 
sharing exactly what has happened is definitely what we think 
HAVA envisioned.
    Commissioner Bresso will now tell you more about EAC's 
clearinghouse and the efforts to gather and share ideas and 
solutions in elections.
    Thank you again for asking me to testify, and I am pleased 
to answer any questions.
    [The statement of Ms. Davidson follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Harper. Thank you, Commissioner Davidson. Commissioner 
Bresso.

              STATEMENT OF THE HON. GINEEN BRESSO

    Ms. Bresso. Good morning, Chair Harper, Ranking Member 
Brady and other members of the subcommittee, and I want to 
thank you for asking me to be with you today.
    One of the roles I have as an EAC Commissioner is to 
collect and share best practices from the field of elections, 
and I truly feel that the best ideas come directly from 
election officials. During my tenure at EAC, I have traveled 
across the country and witnessed many innovative and creative 
approaches in election administration, especially regarding the 
integration of technology into the administration of elections. 
I welcome this opportunity to tell you more about some of what 
I have seen.
    Some of the practices I have witnessed in different States 
include the use of electronic poll books to check in voters, 
systems which offer all voters, in addition to military and 
overseas voters, the ability to track the status of their 
absentee ballot electronically, election offices that use 
technology to provide greater access to election night 
operations and the robust use of social media to communicate 
with voters and the news media about polling place hours, wait 
times and closures.
    EAC has taken the lead in collecting these innovative and 
modern solutions and providing this information to election 
officials and the general public in a central location on our 
Website. The cooperation and feedback we get from election 
officials all across the country allows EAC to fulfill this 
important informational clearinghouse role.
    We have different avenues available which allow us to 
leverage these resources. As the designated Federal officer for 
the EAC Standards Board, I have a built-in group of election 
officials willing to share their insight and ideas. The most 
recent Standards Board meeting featured panel discussions on 
cost-saving initiatives, commercial off-the-shelf hardware 
challenges, implementing the Military and Overseas Voter 
Empowerment Act, and how local media and election officials can 
work together to communicate with voters.
    In an effort to utilize technology and save taxpayer 
dollars, I also worked with the membership of the Standards 
Board to conduct their summer 2010 meeting in a virtual format 
rather than in person. While it may not be recommended or 
effective to have virtual meetings in all instances, this 
format was successful, cost effective, and is a viable 
alternative for other meetings and programs in the future.
    Contingency planning in elections is crucial. When I was 
chair, I observed that many local governments were preparing 
for the flu season, particularly with the threat of H1N1. I 
requested and received preventative plans which included 
commonsense ideas, like placing hand sanitizers in polling 
places, backup staffing strategies and coordination with local 
health departments. These contingency plans and others are 
posted on eac.gov.
    During this past Federal election cycle, I continue to take 
the best ideas from the field and to highlight them after 
observing the primaries in Maryland and D.C. and early voting 
in Georgia and Florida. For example, Maryland conducts parallel 
testing, which is a process that duplicates a portion of the 
election under conditions similar to the polling place. It 
informs election officials that the voting machines are working 
the way they should in the field and can also indicate whether 
malicious code has been introduced. EAC is in the final stages 
of a video about parallel testing, which is an example of a 
process that can increase voter confidence.
    The District of Columbia opened up election night 
operations to the public. They could view the tabulation 
process and get updates in person or by video feed. The State 
of Georgia provides excellent customer service by providing 
many on-line features for voters, including the military and 
those overseas. Georgia's My Vote Page allows for the tracking 
of absentee ballot status, verification of registration status 
and the viewing of sample ballots.
    In Florida, I saw a great community partnership like Move 
the Vote, which is a partnership between Clay County and the 
area realtors to help residents register to vote or update 
their status. And in my home county of Palm Beach, the 
supervisor of elections had volunteers from local scout troops 
at the warehouse to help bring in bags of ballots with memory 
cards and sort them according to precinct.
    These are just a few examples that election officials can 
look to and determine if a same or similar practice could be 
applied for the benefit of voters in their community. All of 
the innovations and practices I observed are available on 
eac.gov.
    EAC also plans to provide an on-line forum for seasoned and 
new election officials to exchange ideas and solutions. Helping 
election officials at both the State and local levels connect 
will create a network of experts who can support each other and 
achieve their goal of providing service to voters.
    I will continue to encourage EAC stakeholders, especially 
election officials, to share their innovations and help EAC 
promote a national dialogue of how election officials can 
continue to serve voters during difficult budget times.
    Thank you for asking me to be here today and I welcome any 
questions you may have.
    [The statement of Ms. Bresso follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Harper. Thank you. Now I will recognize Mr. Wilkey for 
the purposes of his statement.

                   STATEMENT OF THOMAS WILKEY

    Mr. Wilkey. Good morning, Chair Harper, Ranking Member 
Brady, and subcommittee members. Thank you again for asking me 
to be with you today.
    The U.S. Election Assistance Commission is a small Federal 
agency with a big mission to improve the Federal administration 
of elections. EAC has a dual role. We provide resources to help 
States make improvements, and we assist election officials 
throughout the Nation, empower voters through access, 
collaboration and information.
    Today I will briefly discuss our fiscal year 2012 budget 
and how we execute it to achieve our mission. The EAC's fiscal 
year 2012 budget request is $13,715,665, which includes $3.25 
million for the National Institute of Standards and Technology. 
These funds are used to develop the voting system guidelines, 
the accreditation of voting system test laboratories, a uniform 
suite of test methods, and our work to improve services for 
military and overseas voters.
    EAC's operating budget will be used to support these 
additional initiatives: More information for the national 
clearinghouse on elections; projects include an on-line 
information exchange tool for election officials, most 
interactive features like blogs to directly interact with 
election officials and voters; and the use of social media like 
Twitter to get the word out about issues relating to voting 
supports; fully execute our nationwide voting system 
certification and testing program. This includes expanding new 
efforts to track issues for EAC certified systems in the field, 
establishing a communications network with election officials 
using similar systems, and gathering and posting information 
about voting system performance submitted by election 
officials. And throughout 2012, EAC will continue to provide 
resources on a national platform to discuss issues that could 
impact the election, like the use of commercial off-the-shelf 
software and hardware, the lifecycle of voting systems, and how 
to effectively communicate the vote results and information 
about the election process to voters, with a particular focus 
on modern communication methods.
    We have research coming in a few months about how, where 
and when Americans voted in 2010, including the latest, most 
comprehensive data about the ballot request and return rate for 
overseas and military voters. That will give us an initial 
indication about the impact of the MOVE Act.
    I know that some members of this committee think that the 
EAC has outlived its usefulness. I respectfully disagree. In 
fact, in this challenging budget climate, local election 
officials have an even greater need for EAC's resources and 
support, and here is why. Local election officials do not have 
the resources to get the training, stay current on voting 
technology, and buy new voting or registration equipment. Local 
election officials cannot afford to go to conferences where 
solutions and best practices are shared. States and locals 
benefit from the EAC's tough certification program, saving 
millions of dollars in testing time. Voting machine 
manufacturers are held accountable so that election officials 
and voters are assured of reliable systems. Mr. Chairman, EAC 
provides all of these valuable services to election officials 
throughout the Nation at a very low cost to the Federal 
Government. And while I may disagree with those who question 
EAC's value, I respect and share their deep concern about the 
budget challenges our Nation faces at every level of 
government. Every one has more to do with less, and the EAC is 
no exception. We are cutting back, too, and working harder than 
ever to become even more lean and efficient but still provide 
excellent customer service and support the taxpayers, election 
officials and voters throughout the Nation.
    Elections are better because of EAC and what we do. But we 
can always do better and we will. I am very proud of the EAC, 
our employees, and the thousands of election officials we serve 
every day. In my 42 years in elections at the local, State and 
Federal level, I have seen tremendous changes. This is 
especially true in the last 10 years, since the 2000 election. 
There is an understanding now that elections are hard work on 
the part of our dedicated election administrators throughout 
the Nation at every level. Voting machines don't last forever. 
Technology is now a part of the process, and there is more 
scrutiny than ever. EAC's role is to support these hard working 
public servants, especially at the local level, and not with 
money, but to serve as their backbone of solutions, ideas and 
ways to improve customer service for all voters.
    I thank you for asking me here today and I look forward to 
your questions.
    [The statement of Mr. Wilkey follows:] 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Harper. I thank each of you for your statements. We now 
have time for committee members to ask questions of the 
witnesses. Each member is allotted 5 minutes to question the 
witnesses. To help each member track the time, we will use the 
timing device on the witness table, and we will alternate back 
and forth between the majority and the minority. To begin with, 
I recognize myself for 5 minutes.
    And my first question that I have will be for Commissioners 
Davidson and Bresso. One of the responsibilities given to the 
Commissioners in the EAC roles and responsibilities policy is 
to approve the annual budget request. The transmittal for the 
2012 request was signed by Mr. Wilkey, which I understand has 
to do with not having a quorum of Commissioners. Would each 
Commissioner please tell us whether or not you agree with the 
request as submitted and why?
    Ms. Davidson. With the letter that was attached to it, and 
knowing that the staff is looking at how we can save money and 
reporting back to the Commissioners, I agreed with the budget. 
It is down to $13 million. I don't have the last part of the 
figures. But quite a cut. That includes the 3\1/2\ million for 
NIST, or 3.25 I think it is now for NIST, the National 
Institute for Standards and Technology. So that is quite a 
reduction and obviously we know that we need to take that 
further--the staff has talked about, and I am sure that they 
will add to this, working closer with the small agency 
community, all the other agencies to see if we can't share some 
of our responsibilities because obviously in the Federal 
Government--the requirements are far different than any other 
place. Coming from a State, I can tell you they are different 
from the States.
    Mr. Harper. Since we don't have a lot of time, if I can get 
Commissioner Bresso's input on that.
    Ms. Bresso. No, I do not support the budget. I believe the 
budget spends too much money on the bureaucratic infrastructure 
and not enough on agency activities and programs that assist 
State and local election officials and benefit voters. I 
believe that the EAC needs to be a good steward of Federal 
funds and to spend taxpayer dollars in an efficient and 
effective manner, and I don't believe this budget supports that 
goal.
    Mr. Harper. Thank you. And, Ms. Lafferty, if I could ask 
you a question. The chart that is before you, which is based on 
the totals of my category from the budget request, shows the 
EAC proposing to spend 51.7 percent of its budget on 
management. I just need you to help us justify a management 
budget of $5.4 million to manage programs that total just $3.4 
million. That seems really out of kilter, and I would just like 
your explanation on that.
    Ms. Lafferty. Chairman Harper, thank you for giving me the 
opportunity to discuss our presentation of the budget. The 
budget is aligned with the five goals of our strategic plans. 
The first four are our programs that come out of the Help 
America Vote Act. Goal 5 is actually manage, not management. It 
is to achieve organizational and management excellence. About 
half of that 51 percent is for statutory positions and the 
staff that supports those positions, four Commissioners, the 
General Counsel and the Executive Director. So about 27 percent 
is pure administrative cost to support the agency, such as the 
rent and about 12 administrative personnel.
    Mr. Harper. Let us talk for just a minute about one of the 
items in your budget request that has a line item for travel of 
$684,000. The request identifies $7,000 for communications 
travel and I believe $202,000 for testing and certification 
travel. Tell me what the other $475,000 is for on the travel 
request. I believe the total is a little over $684,000.
    Ms. Lafferty. Our Inspector General's budget is included 
within this travel budget. He is not a separate line item or a 
separate appropriation. Part of that is for him.
    Mr. Harper. But not $475,000.
    Ms. Lafferty. No. About $100,000 is for the Commissioners' 
travel, and I would be very happy to provide you with the 
detailed breakout.
    Mr. Harper. If you wouldn't mind, we would appreciate you 
providing that to the committee.
    Ms. Miller, a question for you. According to the agency's 
budget request, in one recent year, you spent $182,000 on 
personal computers, which my math as best I can tell works out 
to about $3,600 per employee. I need to know what kind of 
personal computers cost $3,600 a person. Can you explain that 
purchase of $182,000?
    Ms. Miller. Those were not personal--those were for--we 
completely reassessed our whole infrastructure, technology 
infrastructure and individual laptops which the agency staff 
was using, which they have had since the beginning of the 
agency, were replaced with desktop tower computers. So that was 
for the whole agency and part of the IT infrastructure 
adjustment.
    Mr. Harper. Could you provide me with some additional 
information on that? And I will now recognize Ranking Member 
Brady for questions.
    Mr. Brady. Thank you, Mr. Chairman. My question would be to 
either of the Commissioners or maybe both. In 2009, the 
Government Accountability Office reported they found 72 percent 
of our polling places surveyed on election day to have 
impediments to private and dependent voters and for people with 
disabilities. In 2009 and 2010, this Congress appropriated $7 
million to research and develop ways to improve the 
accessibility for those voters. 2\1/2\ years later, the EAC 
still has not selected researchers to do this essential work. 
On March 1, 2011, the Commission received a number of proposals 
to do the research.
    My question is, why is it taking so long with so many 
polling places still inaccessible and when will the researchers 
be selected? Will they have the funds to start doing their work 
when they are selected?
    Ms. Davidson. I can start with the question. Thank you. One 
of the reasons why is, States are definitely always having to 
change their polling locations and they have to meet the 
accessibility requirements, but many times they are public 
buildings, whether they are churches or whatever, if they are 
old buildings, they are not meeting the needs of accessibility. 
The States have to report that to us each year. And part of 
HAVA is to make that definitely--all of their precincts 
successful. What has taken place since we have had some, 
really, problems with our schools, the school districts are 
cutting off a lot of the States from their ability to use the 
school districts. So they are having trouble finding locations 
which are accessible, knowing what we hear from the Secretary 
of State as well as our locals.
    Mr. Brady. When is this study going to start? The $7 
million we gave you, when are you going to start that research? 
Is that the research that you are giving me now? That the 
schools--in the city from where I am from, the schools have to 
allow us to use them for polling places. That doesn't mean it 
is true all over the country, but I know in Philadelphia they 
have to. They are public buildings. But still, when is the 
research going to start?
    Ms. Bresso. We had an RFP out for the $7 million accessible 
technology grant, which the focus was on improvements to actual 
voting systems for accessibility. And that is currently under 
an independent peer review process.
    As far as polling place setup, the EAC does offer election 
management guidelines and quick starts on how to set up polling 
places, particularly for accessibility purposes.
    Mr. Brady. You still have the $7 million?
    Ms. Bresso. Yes. The $7 million is still at EAC, yes.
    Mr. Brady. One more little quick question. I guess it is 
not even a question. It might be an observation. I heard 
everybody here mention the social media. That causes a little 
problem for me and I think--I am not speaking for the 
chairman--not this chairman--the chairman of the full 
committee. I know this causes a problem for him. Because my 
granddaughters help me with my social media a whole lot and I 
would hate to have to rely on them to tell me when the polling 
places are open or not open. But I think that it could very 
easily be accessed by people that could give out bad 
information. And I know you can't certify any social media, but 
I would hope that you don't play too much of a role, put too 
much respect into what they do because they can--I know in one 
instance from Chairman Lungren that they could declare his 
opponent as winning halfway through the race and it wasn't even 
over yet; the polling places weren't closed. And that can cause 
a lot of mischief.
    I understand it is the way of the world. Probably not my 
world yet, but it is the way of the world. But I just hope you 
won't put too much emphasis on our social media to give out 
information for people that are trying to vote and, most 
importantly, where they are voting. So just look into that, 
please.
    Thank you, Mr. Chairman.
    Mr. Harper. Thank you, Mr. Brady. I will now recognize the 
gentleman from Indiana, Mr. Rokita, for questions.
    Mr. Rokita. Thank you, Mr. Chairman. I appreciate you 
holding this hearing. And I thank the witnesses for attending 
today. I will say for those who will read this record later 
that in my former public role I was Indiana Secretary of State 
for 8 years. And first of all, I was part of a leadership team 
in 2005 in that organization that proposed a successful 
resolution to sunset the EAC and then was part of a unanimous 
group of Secretaries of State from across the Nation that 
renewed that resolution in 2010.
    Having said that, I know each one of the folks before us, 
maybe except for Annette, Ms. Lafferty. Excuse me. And I want 
the record to reflect that my questions simply reflect the 
agency that they work in and what the role of Federal 
Government should be. I personally enjoy each one of the 
witnesses and their personal friendship. In fact, I am 
personally friends with two of them here. One of them I 
consider my second mother. I won't say which one.
    Ms. Davidson. I think it is obvious.
    Mr. Rokita. It is not Wilkey, Mr. Chairman.
    Mr. Brady. You can get into a major problem.
    Mr. Rokita. Right. So having said that and getting all of 
that on the record, looking at some of the data here and 
looking at your budget, some questions have been asked already. 
But I would like to know perhaps from Ms. Bresso, why does an 
agency of 50 people need 11 chief officers and directors?
    Ms. Bresso. I don't believe the agency does and I am 
certainly committed to working with staff here to see where we 
can make consolidations with positions and experience and cost 
savings.
    Mr. Rokita. Thank you. Does anyone on the panel disagree 
with that? The record reflects no one nodding in the 
affirmative.
    On April 14, 2005, a written testimony before the House 
appropriations subcommittee, the EAC Commissioner said at that 
time, quote, with a staff of only 22 persons, EAC efficiently 
executes its duties and responsibilities. Have the duties and 
responsibilities of the EAC increased since 2005 to justify the 
staff more than doubling? Ms. Davidson?
    Ms. Davidson. I think when that was stated, one of the 
things that has shown in our audit that came down was they were 
getting a lot of information out to the States and the locals, 
but they hadn't met any of the Federal requirements of anything 
that they needed to do and the record will show that in our 
hearings later. We worked really hard up front to meet the 
needs of getting the money out to the States and doing things 
like that. But we did not have any of our procedures and 
policies in place for the Federal Government.
    Mr. Rokita. So it would be fair that the 2005 testimony was 
a little bit of a misspeak? You are either doing your duties in 
2005 or not.
    Ms. Davidson. Yes. I think that in 2005 when they 
testified, I think they thought that they were reaching that 
goal. But as we found out when we got audited and we had 
received about 82 infractions, that we found that we hadn't met 
the Federal requirements, it was only meeting our State and 
local requirements.
    Mr. Rokita. Thank you. Under EAC's rules and 
responsibilities policy, do the Commissioners have authority 
over the number of positions of EAC staff and their titles and 
responsibilities, setting the salaries; and if not, who does?
    Donetta, since I cut you off, I will let you continue on 
with answering that.
    Ms. Davidson. No, the Commissioners do not have authority. 
That has been assigned to the Executive Director. Even in HAVA, 
he has the power of hiring staff. But I think if you ask the 
staff that, they can tell you what their plans are in the 
future.
    Mr. Rokita. Thank you. Commissioner Bresso, do you have a 
response to that?
    Ms. Bresso. No. I was just going to agree that the only 
authority commissioners have for hiring are the two statutory 
positions, the General Counsel and the Executive Director.
    Mr. Rokita. Is this a good way to run a ship? Is this a 
good way to run an agency?
    Ms. Bresso. No, I do not believe. I believe the 
commissioners should have more authority.
    Mr. Rokita. Thank you. Mr. Wilkey, seeing as there is a 
little bit of time left, can you cite the part of the 
Constitution that suggests the Federal Government should 
involve itself with local election officials? You mentioned 
local election officials not being able to go to conferences 
and things. I have been to a lot of those, and they come and 
they come to the bar afterwards. I know this. So tell me where 
in the Constitution--because we have a House rule now where we 
have to cite to the Constitution. So if this agency was to 
start off tomorrow and we were to file a bill, what part of the 
Constitution allows for this agency to interact with local 
election officials?
    Mr. Wilkey. I am not a constitutional expert. So I couldn't 
quote that part of the Constitution. But what I can say is that 
a lot of the support that we give and that we get back are from 
local election officials. I think you yourself know having 
served as Secretary of State. While we had a role, and I served 
at the State level also, the real nitty gritty work of 
elections is done at the local level and it is there that we 
have tried our very best through our 19 sets of management 
guidelines, being assessed on a daily basis, the things that we 
are doing in our certification program that directly impact 
local election administrators. And I would believe that if they 
had the opportunity to appear before the committee, that many 
of them would certainly recognize that they receive a great 
deal of information from us and a great deal of support from 
us.
    Mr. Harper. At this time, I will recognize the gentleman 
from Texas, Mr. Gonzalez, for questions.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. Mr. 
Wilkey, Ms. Miller, Ms. Lafferty, obviously there is 
disagreement as to whether this is the kind of budget that all 
commissioners would approve of. So I am just wondering, what 
goes into the budget-making process over at the Commission? 
Whose opinion, suggestions, recommendations do you seek? And 
whoever is in the best position to answer that.
    Mr. Wilkey. Congressman, our budget process starts as all 
Federal agencies, usually year round. We have already put our 
2012 budget request to bed by September. We will also already 
be talking about 2013. We sit and work with all of our 
divisions within our agency to develop our budget. Certainly 
that budget proposal is normally given to our commissioners for 
approval, but as was indicated in earlier testimony, this year 
was a little different because we don't have a quorum. And so I 
indicated in my cover letter to the various appropriations 
committees that we were unable at this time to present a formal 
budget because of the lack of a quorum on the Commission. But 
when the Commission is reconstituted fully, we will certainly 
bring this back to them. Because once we get a budget, the 
second step is doing an implementation plan for the money that 
we receive once the budget is finalized. And that 
implementation plan will not only set the goals for the agency, 
but also show the intent of the commissioners and where they 
want to go.
    Mr. Gonzalez. Let me ask you, Mr. Wilkey, because I may be 
missing something in the process, protocol, maybe legalities or 
whatever. Because you don't have a quorum, does that mean that 
Commissioner Bresso or Commissioner Davidson doesn't have any 
input at all as you go through the budgetary process?
    Mr. Wilkey. I don't believe so. And I think--and I know 
that Commissioner Bresso has expressed her opinion and I 
respect that. We have had many discussions about it and 
hopefully, and hopefully soon if we get a full Commission, we 
will go back to them. Hopefully at that point, we will also 
have a budget for the remainder of the fiscal year and then we 
can adopt--I can ask the commissioners to adopt an 
implementation plan that they see fits their needs.
    Let me also, if I may, point out something that I alluded 
to in my testimony for you at the beginning of this hearing. I 
recognize that we need to become leaner. That is a goal I think 
that every agency in the Federal Government needs to be looking 
at. I talk to local and State election officials every day and 
listen to their situations where they are losing 20, 30, even 
in some cases I have heard 50 percent of their budget. And so 
we must also make ourselves leaner and still be able to meet 
our mandates under the Help America Vote Act. Many of those 
mandates are Federal regulations that we need to comply with. 
That takes up a great deal of our time. And I am hopeful that 
in looking across the board that Congress will look at that 
because we have to meet the same regulations, FISMA, right down 
the line, as the big boys do, which means we have to have 
additional staff to be able to meet those regulations.
    Let me also point out that, and I think Commissioner 
Davidson alluded to this, that we have a very close association 
and work closely with the Small Agency Council. They are a 
group of small agencies similar to us in size. There aren't 
that many of them. But, yeah, we work to share in this 
situation many training opportunities. And as a resource to 
bounce issues off of one another, how do you handle this, how 
do you do this, I think that that relationship needs to be 
increased. I think we need to look at ways that we can share 
more resources. For example, just recently we had a vacancy in 
our procurement office. We chose not to fill that vacancy but 
instead to reach out to the Small Agency Council and see if 
they could help us in any way. And as a result of that, we are 
now going to be sharing a procurement officer with another 
small agency. I think there are excellent opportunities to be 
able to do that. So I have asked our CFO, our General Counsel, 
who has a wealth of experience coming from many years at OPM, 
and our CFO, our Chief Financial Officer, to work with me in 
taking a look at the agency as a whole, see what our mission 
is, see what we need to accomplish by statute and the good work 
that we want to continue to do for our State and locals, and 
find ways that we can reduce the cost, reduce the size of the 
number of personnel that we have and still be able to meet 
those obligations. And I think that we can do that if we are 
able to share resources with other agencies who are obviously 
going to have the same fiscal mandates as we do. And I think 
that--and hopefully that Congress will take a look at that and 
perhaps even make some incentives to small agencies to be able 
to do that.
    Mr. Gonzalez. And my time is up. I have exceeded it. Thank 
you, Mr. Chairman.
    Mr. Harper. Thank you. I will now recognize Mr. Nugent, the 
gentleman from Florida, for questions.
    Mr. Nugent. Thank you, Mr. Chairman. And thank you, 
commissioners and staff for being here. Mr. Wilkey, can you 
answer a question for me, particularly as it relates to former 
military, National Guard, Reserve members, how many do you have 
on the staff of EAC?
    Mr. Wilkey. Until recently, I believe we had one and that 
was the procurement officer that just left us for another job 
and a warmer climate down in North Carolina.
    Mr. Nugent. So what steps are you going to take to recruit 
additional former military or currently reservists?
    Mr. Wilkey. Certainly we have as part of our recruitment 
process for any position that comes vacant a recruitment effort 
that covers all areas, not only the disability community, the 
minority community and all of the other communities as well. 
Now, as I indicated in my earlier testimony just a few seconds 
ago, it is not likely that we are going to have that many 
positions open in the future. I have instituted a hiring freeze 
a couple of months ago and that any position that becomes 
vacant now will be looked at very carefully to see if there are 
other persons on staff that can do that or, as I previously 
mentioned, we can outsource it or work with another small 
agency or another agency to accomplish that goal. So we don't 
offer many opportunities now to fill positions in the near 
future.
    Mr. Nugent. It just seems like a rather small number if all 
you had was one. Obviously in your responsibility--particularly 
as it relates to military voting overseas, is that correct?
    Mr. Wilkey. That is correct, although I think the bulk of 
that work is done by the Federal Voting Assistance Program, and 
I know that they have many former military personnel working 
for them as well as I believe some detailees. I cannot say that 
for sure.
    Mr. Nugent. Do you believe that they bring value, 
reservists and former military? Do you believe they bring value 
to your organization?
    Mr. Wilkey. Absolutely. I think any people that have had 
that type of experience would bring valuable service. We 
certainly were very sad to lose our procurement officer because 
he brought a lot of that experience to his work in dealing with 
contracts. And so we were very happy to have him with us and 
sorry to see him go.
    Mr. Nugent. One of the things I read is that your last or 
your latest General Counsel hiring process, he asserted in a 
written statement that he was asked questions by former 
Commissioner Hillman in his interview that were an attempt to 
use his military service as a negative in the employment 
selection process by pointing out the potential for short-term 
and long-term absence as a reservist. If this is true, it may 
amount obviously to a violation of the Uniform Services 
Employment and Re-employment Rights Act. Is there a pending 
investigation or claim that you know of?
    Mr. Wilkey. There is a pending claim, Congressman, and we 
recently received some further information on that. The 
commissioners are looking at that now. They will be consulting 
with their counsel and since it is a confidential matter, we 
certainly would be glad to brief any member of the committee or 
brief committee staff on whatever information we can provide to 
them.
    Mr. Nugent. I am certainly concerned as a father of three 
currently serving military officers in the United States Army, 
I am a little concerned that that questioning would even go to 
that direction, much less the fact that you only had one prior 
service. One of the things that when these kids are serving 
overseas and they come back to this country for employment, 
their military service is supposed to mean something. And I 
would love to have any input from any commissioners on that, 
also, if you would like.
    Ms. Davidson. I feel that, like our Executive Director 
said, if you would like to be briefed, I would be more than 
happy to talk with you in private. I just think that right now 
with it being under review that it is best that we don't bring 
it up in a public forum.
    Mr. Nugent. I understand. We are going to request through 
letter to you with regards to the information that we would 
like to have presented back to us, Mr. Chairman, if you don't 
mind. And we would like to have you send us any related 
documents that we may request. I am a little concerned about 
the fact and go back to a prior--another conversation that you 
had and particularly Commissioner Bresso in the fact that you 
don't actually consult--I mean, you have a quorum--you have 
four members; is that correct? And to have a quorum, you have 
to have how many present?
    Ms. Bresso. You have to have three, three of the four.
    Mr. Nugent. But I am surprised you don't talk to, since you 
have such a small number, that you don't talk to your 
commissioners in regards to the actual budget process to get 
input. Particularly when you have a small agency of 50 
employees. And I ran an agency of 500. So I am a little 
dismayed by the fact on the input aspect of it. But we are 
going to be asking those questions in a written format to you. 
So we appreciate your response. Thank you.
    Mr. Harper. This time I would like to introduce into the 
record the resolution from the National Association of 
Secretaries of State which was adopted on February 6, 2005 and 
was renewed at the 2010 summer conference in July 20, 2010, 
which recommended that the EAC could be eliminated.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Harper. Also, I will introduce into the record a copy 
of the letter from the Social Security Administration dated 
October 13, 2010, which indicated that the agency, EAC, had 
failed to do its statutorily required report which is now more 
than 5 years past due.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Harper. And then also I will introduce into the record 
the Office of Special Counsel report discussing the settlement 
of the political discrimination case, which is dated December 
2, 2009, which covers an issue that we have obviously covered 
in the previous term in hearings in here. But this covers a 
matter that resulted in the government being sued and paying 
out a settlement. And this is a report that we would submit to 
the record. Is there any objection to that? That is without 
objection.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Harper. And I will recognize--and I also have one other 
report, which would be the IG report on one of my favorite 
topics, the purchase of the shirts and sweatshirts that were 
purchased. And in that report also it recognizes that there 
were 263 shirts remaining in inventory and that is something 
that you, Mr. Wilkey, you and I discussed in a previous 
hearing. So I won't beat a dead horse on that, but I would 
submit that also in the record. And that is also without 
objection.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Harper. I will now recognize Ranking Member Brady.
    Mr. Brady. Thank you, Mr. Chairman. I ask unanimous consent 
to include the following in the record: A letter to the 
National Institute of Standards and Technology from me 
regarding H.R. 672 and the reply; a letter to the FEC from me 
regarding H.R. 672 and the reply; a letter from Leadership 
Conference of Civil and Human Rights to the President regarding 
the appointment of commissioners to EAC; letters from CCD 
regarding the EAC and voters with disabilities; a letter from 
the Public Citizens regarding staffing and funding of the EAC; 
a letter from the American Association of People with 
Disabilities regarding this hearing. And I thank you for having 
this hearing, Mr. Chairman. I also thank the witnesses for 
participating.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Harper. Thank you very much, Mr. Brady. I would ask, 
Mr. Wilkey, if you could in writing inform us of the 
whereabouts of those shirts just for my curiosity if you don't 
mind.
    Mr. Wilkey. I would be happy to do so, Mr. Chairman.
    Mr. Harper. And I thank the witnesses for appearing today 
and for the members' participation. I now adjourn the 
subcommittee.
    [The information follows:] 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Whereupon, at 12:00 p.m., the subcommittee was adjourned.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
